                                  Office of lnspector General
                                 Corporation for National and
                                                                                 ~1
                                          Community Service




             Agreed-Upon Procedures to the
              United Planning Organization,
             Grant Numbers OZSFSDC078 and
                      03SFSDC001
                   OIG Report Number 05-06




                            Prepared by:

                    Office of Inspector General
                    Corporation for National and
                        Community Service
                    1201 New York Avenue, NW.
                      Washington, DC 20525




This report was Issued to Corporation management on November 22, 2004.
Under the laws and regulations governing audlt followup, tha Corporation is to
make final management doclsions on the report's findings and
recommendrtlons no later than May 22,2005, and complete wrrectlve action by
November 22, 2005. Consequently, the reported findings do not necessarily
represent the final resolution of the Issues presented.
                                      EXECUTIVE SUMMARY

The National and Community Service Trust Act of 1993 established the Corporation for National
and Community Service (Corporation). The Corporation funds opportunities for Americans to
engage in service that fosters civic responsibility, strengthens communities, and provides
educational opportunities for those who make a substantial commitment to service.

The Corporation awards grants and cooperative agreements to State commissions, nonprofit
entities, tribes, and territories to assist in creating full-time and part-time national and community
service programs. The Foster Grandparents Program (FGP) provides grants for the dual purpose
of engaging persons 60 and older in volunteer service to help at-risk children and youth with
special needs, and of providing a high-quality experience that will enrich the lives of the
volunteers. Program funds are used to support Foster Grandparents in providing supportive,
person-to-person service to children with exceptional or special needs.

The objectives of our agreed-upon procedures engagement were to determine if claimed costs
reported to the Corporation by the United Planning Organization (UPO) were allocable and
allowable, and whether UP0 complied with applicable Federal laws and regulations, and the
terms and conditions set forth in the grants. We are questioning $160,927 of the $1,906,955, or
8.4 percent, of expenditures incurred under the grant agreements through June 30, 2004, due to
noncompliance with grant terms and conditions.


 I                              Summary of Questioned Costs                           I
                                                                                  i
        Grant
          . -. .-   --    -..--Grant Period --- Claimed              Questioned
      02SFSDC078          0410 1102 to 12131/02    $577,030             $37,522




  1     TOTAL



The questioned costs include $82,600 of salary, overtime, and fringe benefits charged for a
driver and a grants monitor, whose positions were never approved by the Corporation. These
positions were charged to the grant from May 2003 to July 2004. We were also unable to
determine whether these employees actually worked on the grant.

The following internal control findings are addressed in this report:

                    The grantee did not comply with grant terms and conditions.

                    The grantee's time sheets contained errors and were not signed.
               The grantee's policies and procedures did not address its drawdown practices.          ,I

               The grantee did not provide complete assignment plans for Foster Grandparents.

               The grantee's budgets included erroneous information on amounts contributed to
               match volunteer travel costs.

Serious financial management issues, including questionable and unauthorized purchases, were
included in a recent report issued by the District of Columbia Department of Human Services, an
O M R A- 133 audit. this agreed-upon procedures engagement, and a Head Start monitoring visit.
Since March 2004, UP0 has taken a number of actions in response to these findings. The
actions include the termination of the former Executive Director and an FGP employee; the
replacement of several members of the Board of Directors; the establishment of a By-Laws
Committee; and the implementation of several financial operations changes. These changes
include restricting out-of-town travel, converting consultants to employees, refinancing UP0
debt, and establishing new cell phone and vehicle use policies.

The management of U P 0 generally concurred with most of our findings and recommendations.
In its response to the draft audit report, UP0 management acknowledged certain deficiencies in
its internal control systems and established an aggressive program to address financial and
program management issues found during the audit that were also identified in other Federal
audits. The management of U P 0 concurred with most of the disallowed grant costs, except UP0
requested the following adjustments for the January 1,2003, to ~ e c e m b e 3r 1,2003, period:

                           Questioned       U P 0 Response
 Cost Category               Costs                                                             ---+       .-.-.
 Bonus                      $ 19          The bonus was incorrectly charged to fringe benefits.
 Utilities-Electric           228         UP0 claims this amount is included in the supplies
                                          budget.
 Utilities-Water              2,000       UP0 claims this is allowed in the budget.
 Equipment-Computer           4,306       UP0 claims this is allowed in the budget.
 Clothing                     2,438       UP0 requests amount be applied to the supplies
                                          budget.
 Meals                          114       UP0 requests that this be allowed as a line item in the
                                          supplies budget.
 Indirect                    13,890       UP0 responded that it did not include this amount on
                                          its Financial Status Reports.                               L

Although there was no overtime in the budget, UP0 also requested that the Corporation allow
these costs for efforts provided by the program coordinator and an intern who worked extra
hours completing program assignments in all three program years.
We reaffirm our findings and recommendations. The aforementioned items, including overtime,
were either not in the budget, or were to be paid from the grantee's share rather than with Federal
funds. The indirect charges of $13,890 may not have been in Financial Status Reports, but they
were drawn down by UPO. Also, as stated in Schedule D, we recommend that the Corporation
require UP0 to submit its total grantee share to the Corporation to ensure that UP0 met its
matching requirements. As part of the audit resolution process, the Corporation will determine
whether the questioned costs are allocable and allowable under the grant. The UPO's and the
Corporation's responses are included as Appendices A and Byrespectively.


                                        BACKGROUND

The Foster Grandparent Program is part of Senior Corps, a Corporation program that provides
older Americans the opportunity to put their life experiences to work for local communities.
Foster Grandparents serve as mentors, tutors, and caregivers for at-risk children and youth with
special needs. They serve in a variety of community organizations, including schools, hospitals,
drug treatment facilities, correctional institutions, Head Start programs, and day care centers.

The goals of the FGP are to:

               Enable low-income persons to remain physically and mentally active and to
               enhance their self-esteem through continued participation in needed community
               service;

               Enable children with either exceptional or special needs to achieve improved
               physical, mental, emotional, and social development, thereby helping them to
               reach social, behavioral, developmental, and educational goals; and

               Provide a stipend and other benefits which enable eligible persons to participate
               as Foster Grandparents without cost to themselves.

To be eligible, Foster Grandparents must be 60 years of age, have limited income, and be
determined through a medical examination to be capable of serving children with exceptional or
special needs. For their service, Foster Grandparents receive a tax-free stipend of $2.65 an hour,
reimbursement for transportation and meals during service, fiee annual physical examinations,
and fiee accident and liability insurance while on duty. The stipend enables the Foster
Grandparents to serve without cost to themselves.

Foster Grandparents must serve an average of 20 hours a week for a minimum of nine months
per year. Foster Grandparents may not serve more than 1,044 hours per year. Federal
regulations require all Foster Grandparents to receive a written volunteer assignment plan that:

               Is approved by the sponsor and accepted by the Foster Grandparent;
              Identifies the individual child to be served;

              Identifies the role and activities of the Foster Grandparent and expected outcomes
              for the child;

          0   Addresses the period of time each child should receive such services; and

              Is used to review the status of the Foster Grandparent's services in working with
              the child.

United Planning Organization was established in 1962 to plan and implement social services for
the Washington, DC, area. Corporation grants to UP0 enable approximately 157 Foster
Grandparents to volunteer at more than 44 work sites. They work with children and young adults
to provide parenting skills for young mothers; serve children in schools, hospitals, and
community day care centers; and meet various educational and health needs.


                     OBJECTIVES, SCOPE, AND METHODOLOGY

We performed an agreed-upon procedures engagement of the following Corporation awards:

                             Grant No.                  Grant Period




Our objectives were to determine if claimed costs reported to the Corporation were allocable and
allowable, and whether UP0 complied with applicable Federal laws and regulations, and the
terms and conditions set forth in the grant. To accomplish our objectives, we took the following
steps:

              Interviewed the Corporation program officer responsible for the FGP;

              Reviewed Corporation grant files;

              Interviewed U P 0 personnel;

               Reviewed UP0 employee personnel files, time sheets, and payroll records;

               Reviewed volunteer files, time sheets, and stipend payments;

               Reviewed selected UP0 policies and procedures, and the U P 0 drawdown
               process;
                                                 4
               Compared U P 0 expenses to the approved budgets; and

               Analyzed U P 0 financial records for unallowable costs.

Our fieldwork was performed from May 2004 to August 2004. Our agreed-upon procedures
engagement covered grant activity from the time of the award to the current period. We
conducted exit conferences with UP0 and the Corporation on August 26, 2004. We conducted
our agreed-upon procedures engagement in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States.

                          FINDINGS AND RECOMMENDATIONS

This report pertains only to the performance of agreed-upon procedures to determine if claimed
costs reported to the Corporation were allocable and allowable, and whether U P 0 complied with
applicable Federal laws, regulations, and the terms and conditions set forth in the FGP grant. We
did not perform an examination on the subject matter of this report, the objective of which would
be the expression of an opinion. Accordingly, we do not express such an opinion. Had we
performed additional procedures, other reportable matters might have come to our attention.

Agreed-upon procedure results are detailed in Schedules A through D and the related notes, and
are summarized below:

                         Summary of Questioned Costs
       Grant             Grant -Period
                                  - -.-- -...-- -- -
                                                       Claimed
                                                         .  -     Questioned
   02SFSDC078        0410 1102 to 12131102             $577,030     $37,522




      TOTAL
                                                                                                      Schedule A

                     SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                         CORPORATION GRANT NO. 02SFSDC078
                          APRIL 1,2002, TO DECEMBER 31,2002

                                                                    Questioned
    Cost Category                           Claimed Costs             Costs               Notes   -
    Overtime                                  $    332              $    332                1
    Fringe Benetits                                 86                    86               2
    Indirect                                    56,692                56,692                 3
    Other Operating Costs                      539,508
    Operating Costs Not Claimed                 4=Gm!u               (19.588)               4
    Total                                      $577.030               $37.522


                                  NOTES TO THE SCHEDULE OF
                                CLAIMED AND QUESTIONED COSTS

          Overtime. The UP0 claimed $332 for overtime for the FGP. We question these costs
          because overtime was not authorized in the approved grant budget. OMB Circular A-
          122, Cost Principles for Non-Projt Organizations, Attachment B, Section 8(f), states that
          overtime is allowable only with the prior approval of the awarding agency.

          Fringe Benefits. Claimed fringe benefit costs were based on a 25.92 percent rate
          computed by UP0 and applied to total labor costs. Accordingly, we question $86 ($332
          x 25.92 percent) of fringe benefit costs associated with Note 1 above.

          Indirect.    The UP0 claimed indirect costs that were not permitted under grant
          provisions. The claimed amount was based on a 10.5 percent rate that was applied to
          total labor costs. The indirect ex ense charged to the FGP grant was not included in
          UPO's official books and records.' The UPO's Chief of Revenue and Reports manually
          calculated the indirect expenses prior to drawing down funds from the Department of
          Health and Human Services' Payment Management System (PMS). The Chief of
          Revenue and Reports may not have been aware that an indirect rate was not authorized.
          We therefore question the total claimed indirect expense of $56,692.

          Operating Costs Not Claimed. The UP0 incurred $19,588 of expenses in excess of the
          $577,030 grant. We therefore reduce our questioned costs by $19,588.




'   The UP0 uses a monthly trial balance report to prepare drawdowns. The trial balance did not include any of the
$56,692 of indirect costs.
                                                          6
                                                                                    Schedule B      ~
                                                                                    Page 1 of 3


                  SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                       CORPORATION GRANT NO. 03SFSDC001
                      JANUARY 1,2003, TO DECEMBER 31,2003


                                                      Questioned
     Cost Category               Claimed Costs          Costs          Notes
     Regular Pay                    $160,830            $3 1,646          1
     Overtime                         10,719             10,719          2
     Fringe Benefits                  52,741             1 1,290         3
     Bonus                                19                  19         4
     Utilities-Electric                  228                 228         4
     Utilities-Water                   2,000              2,000          4
     Food and Refreshment              5,475               5,475         4
     Equipment-Computer                4,306              4,306          4
     Clothing                          2,438               2,438         4
     Meals                               114                 114         4
     Indirect                         13,890             13.890          5
     Other Operating Costs           542,982
     Total                          $295.742            $82.125




                               NOTES TO THE SCHEDULE OF
                             CLAIMED AND QUESTIONED COSTS

1.       Regular Pay. In May 2003, the former UP0 Executive Director transferred two
         positions, a bus monitor and a driver, from the U P 0 Executive Office to the FGP grant.
         At this time, the bus monitor was appointed as a grant monitor and was given a 56
         percent salary increase. Both employees were charged to the FGP grant until this
         engagement began. We question 100 percent of the labor charges for these two
         employees due to the following: 1) UP0 was unable to demonstrate that they worked on
         the FGP grant; 2) UP0 did not include the positions in its grant budgets and, therefore,
         the Corporation never approved the positions; and 3) the positions were not needed to
         fulfill the grant objectives.
                                                                                 Schedule B
                                                                                 Page 2 of 3

     Staff from the UP0 informed the OIG that they never observed these two individuals
     working on the FGP grant. The UP0 Office Director stated that the grant monitor and
     the driver began working on the FGP grant effective April 2004 and June 2004,
     respectively. The UP0 submitted a revised budget request to the Corporation
     approximately one year after the salaries of both employees were first charged to the
     grant. However, the Corporation never approved the revised budget.

     The bus monitor, who was transferred to a grant monitor position, informed the OIG that
     she may have commenced work on the FGP grant in approximately November 2003.
     However, she did not know the difference between the FGP grant and other U P 0 grants
     involving senior services. For example, she stated that she works with Foster
     Grandparents at her duty station, the Wellness Center, on Alabama Avenue in
     Washington, DC. However, this location does not have a Foster Grandparent program.
     The other transferred employee, the driver, stated that he was provided a new job number
     in May 2003, which he used to complete his time sheet. However, his daily work did not
     change after his transfer to the FGP program.

     We determined that the transfer of these two employees to the FGP grant was
     unnecessary because UP0 already had an employee performing Foster Grandparent
     monitoring, and the Foster Grandparents, who transport themselves to the volunteer
     stations. do not require the services of a driver. Furthermore, UP0 reimburses its
     estimated 157 Foster Grandparents for mileage or bus fare to their duty locations.

     This transfer of positions appears to have been an attempt by U P 0 management to shift
     the organization's administrative salaries to Federal funding without authorization or
     programmatic rationale.

2.   Overtime. The U P 0 claimed $10,719 of overtime for the FGP. Included in this amount
     was $8,065 of overtime charged by the driver whose position was not approved under the
     grant agreement. See Note 1. We also question these costs because overtime was not
     authorized in the approved grant budget.

3.   Fringe Benefits. Claimed fringe benefit costs were based on a 26.65 percent rate
     computed by U P 0 that was applied to total labor costs. Accordingly, we question
     $1 1,290 (($31,646 + $10,719) x 26.65 percent) of fringe benefit costs associated with
     Notes 1 and 2 above.
                                                                                Schedule B
                                                                                Page 3 of 3

4.   Miscellaneous Expenses.

        a. We question the costs claimed for bonus ($19), utilities-water ($2,000), food and
           refreshment ($5,479 clothing ($2,438), and meals ($1 14). In accordance with
           the authorized grant budget, these cost items were to be paid from the grantee's
           share rather than with Federal grant funds. OMB Circular A-110, Uniform
           Administrative Requirements for Grants and Other Agreements with Institutions
           of Higher Education, Hospitals and Other Non-Profit Organizations, defines cost
           sharing as that portion of project or program costs not borne by the Federal
           Government. We question these costs because UPOYsbudget estimated that these
           costs would be paid from its own funds, but UP0 actually charged these costs to
           the grant.

        b. We question utilities-electric costs ($228) and equipment-computer costs ($4,306)
           because these cost items were not included in UPO's approved budget. OMB
           Circular A-122, Cost Principles for Non-Pro$t Organizations, Attachment A,
           Section A(2), states that, to be allowable under an award, costs must conform to
           any limitations or exclusions set forth in the award as to type or amount of cost
           items. We question these costs because UP0 did not include them in the budget
           submitted to, and approved by, the Corporation.

5.   Indirect. The UP0 claimed indirect costs that were not permitted to be charged to this
     grant. The claimed amount was based on a 10.5 percent rate that was applied to total
     labor costs. HHS and U P 0 agreed to a provisional rate. The indirect expense charged to
     the FGP grant was included in UPO's trial balance and the Chief of Revenue and Reports
     may not have been aware that an indirect rate was not authorized when he performed the
     drawdown. We therefore question the total claimed indirect expenses of $13,890.
                                                                                     Schedule C

                SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                    CORPORATION GRANT NO. 03SFSDC001
                      JANUARY 1,2004, TO JUNE 30,2004


                                                      Questioned
Cost Category                   Claimed Costs           Costs          Notes
Regular Pay                       $1 10,196           $ 23,813            1
Overtime                              8,287               8,287           2
Fringe Benefits                     40,025                8,555           3
Food & Refreshment                    6,100                 -
                                                            625           4
Other Operating Costs              386.543
Total                             $551.151            $=L!LJ@


                            NOTES TO THE SCHEDULE OF
                          CLAIMED AND QUESTIONED COSTS


       Kegular Pay. See Schedule ByNote 1

       Overtime. The UP0 claimed $8,287 of overtime for the FGP. Included in this amount
       is $1,694 of overtime charged by a driver whose position was not approved in the grant
       agreement. See Schedule ByNote 1. We question these costs because overtime was not
       authorized in the approved grant budget.

       Fringe Benefits. Claimed fringe benefit costs were based on a 26.65 percent rate
       computed by U P 0 that was applied to total labor costs. Accordingly, we question $8,555
       (($23,8 13 + $8,287) x 26.65 percent) of fringe benefit costs associated with Notes 1 and 2
       above.

       Food & Refreshment. The authorized budget for the Corporation's grant with UP0 did
       not include any expenses for food and refreshments. The authorized budget included
       "meal/lunch" to be paid by the grantee as a non-Federal matching contribution to the
       program. Therefore. we question the entire claimed food and refreshment expenses.
       OMB Circular A-1 10, Unijorm Administrative Requirements for Grants and Other
       Agreements with Institutions of Higher Education, Hospituls and Other Non-Projt
       Organizations, defines cost sharing as that portion of project or program costs not borne
       by the Federal Government. We question these costs because UPO's budget estimated
       that these costs would be paid from its own funds, but the UP0 actually charged these
       costs to the grant.
                                                                                                  Schedule D
                                                                                                  Page 1 of 3

                         UNITED PLANNING ORGANIZATION
                INTERNAL CONTROL FINDINGS AND RECOMMENDATIONS

During the course of agreed-upon procedures, the following conditions came to our attention:

1.         The grantee did not comply with grant terms and conditions.

As detailed in Schedules A through C, UP0 billed costs that were unallocable and unallowable
in violation of grant terms and conditions. OMB Circular A-122, Cost Principles for Non-Pro31
Organizations, Attachment A, Section A(2), states that, to be allocable and allowable under an
award, costs must conform to any limitations or exclusions set forth in the award as to the type or
amount of cost items. In some cases, when the Chief of Revenue and Reports performed the
drawdowns, he may not have been aware that certain cost items were unallocable and
unallowable to the FGP grant.

Recommendations:

A.         The Corporation should instruct UP0 to revise its policies and procedures to ensure that
           it claims only allocable costs under the FGP grant.

I .         The Corporation should recover the questioned costs via Corporation Policy Number 101,
            Audit Resolution.

2.          The grantee's time sheets contained errors and were not signed.

We requested FGP employees' time sheets for calendar year 2003 and the first six months of
2004. The Program Manager was unable to provide time sheets for the grant monitor and the
driver. The UPO's General Counsel located these missing time sheets and provided them to us.
We determined that 20 time sheets of the grant monitor and driver omitted employee or
supervisory signatures, and 27 of their time sheets had mathematical errors.= In all cases, the
mathematical errors resulted in excess overtime hours charged to the FGP grant, other grants,
and the Executive Director's Office. The excess overtime hours are questioned in conjunction
with total overtime charged as presented in Note 2, Schedules B and C.

OMB Circular A-122, Cost Principles for Non-Pro3t Organizations, Attachment B, Section
8(n1)(2)(c) states, "reports must be signed by the individual employee, or by a responsible
supervisory official having first hand knowledge of the activities performed by the employee."
In some cases, the time sheets for the grant monitor and driver were not submitted through a
supervisor for a review of completeness and accuracy. Labor mischarging and other errors can
take place without an effective timekeeping system.



      We tested the biweekly time sheets from May 10,2003, to June 18,2004, for both employees.
                                                          11
                                                                                      Schedule D
                                                                                      Page 2 of 3

The UPO's policies also require that time sheets be signed and that the payroll accountant review
all time sheets for mathematical accuracy. The payroll accountant who was to perform this duty
during the period covered by this report is no longer employed by UPO. We were therefore
unable to ascertain why she did not review those time sheets for accuracy.

Recommendation: The Corporation should instruct UP0 to comply with its timekeeping
policies and OMB Circular A- 122, Cost Principlesfor Non-Profit Organizations.

3.     The grantee's policies and procedures did not address its drawdown practices.

The UPO's policies and procedures did not address its current practices for withdrawing funds
from the Department of Health and Human Services' PMS. The actual practice at UP0 for
withdrawing funds included the completion of a withdrawal form that was signed by the Chief of
l i c w ~ u cand Reports and the Executive Director. The UPO's policies and procedures state that
the Chief of Revenue and Reports shall draw cash from the U S . Treasury and do not mention the
Executive Director's responsibilities or the use of a withdrawal form.

The U P 0 was not aware that its policies were inconsistent with its procedures. Without
consistent policies and procedures, future UP0 drawdowns may be improperly performed, and
may circumvent the Executive Director's authorization.

Recommendation: The Corporation should instruct UP0 to enhance its drawdown policies and
procedures to document the Executive Director's responsibility for approving drawdowns of
funds from the PMS. and to document the use of the withdrawal forms.

4.     The grantee did not provide complete assignment plans for Foster Grandparents.

Complete assignment plans were not included in any of the six Foster Grandparent personnel
files tested. In accordance with 45 CFR 5 2552.72, UP0 is required to furnish its Foster
Grandparents with a written volunteer assignment that:

      Is approved by the sponsor and accepted by the Foster Grandparent;

      Identifies the individual children to be served;

      Identifies the role and activities of the Foster Grandparent and expected outcomes for the
      child;

      Addresses the period of time each child should receive such services; and

      Is used to review the status of the Foster Grandparent's services in working with the child.
                                                                                     Schedule D
                                                                                     Page 3 of 3

The U P 0 used an "Assignment Information" form that included general information on the
Foster Grandparents' assigned classroom, grade and service schedule. However, none of the
information required by Federal regulation was included on this form. The TJPO was not aware
that more specific information was required.

Recommendation: The Corporation should instruct U P 0 to provide written assignment plans to
all Foster Grandparents in accordance with 45 CFR 8 2552.72 requirements.

5.     The grantee's budgets included erroneous information on amounts contributed to
       match volunteer travel costs.

Volunteer travel expenses are the amounts U P 0 reimburses its Foster Grandparents to enable
them to serve at no cost to themselves. Such expenses include reimbursement for bus fares and
automobile mileage to volunteer stations. The U P 0 submitted budgets to the Corporation that
included volunteer travel expenses as a grantee-shared expense. Based on UFO's budgets, the
Corporation believed that U P 0 was paying for some of the volunteer travel amounts. However,
UP0 charged the Corporation the entire amount incurred for volunteer travel for each program
year. The U P 0 budgeted, and the Corporation approved, the following volunteer travel
expenses:

     Program                                 Corporation
       Year          Total Amount              Share           Grantee Share
      2002              $60,108                $40,362           $19,746
      2003               96,131                 53,102            43,029
      2004               60,034                  17,005           43,029
     TOTAL             $21 6,273              $1 10,469         $105,804

Every two weeks, U P 0 provides volunteers with stipends and travel reimbursements in one
check, and the total amount is recorded in the stipends account. The individual preparing the
budgets may not have known that volunteer travel was recorded in the stipends account and,
therefore, was unaware that U P 0 was charging the Corporation for the entire amount.

Recommendations:

A.      The Corporation should instruct U P 0 to provide more accurate budgets that reflect actual
        charging practices.

B.      The Corporation should require U P 0 to submit its total grantee share to the Corporation
        to ensure that U P 0 has met its matching requirements. If U P 0 has not met its matching
        requirements, the Corporation should recover the pro rata share of its volunteer travel
        exnenses to the extent that U P 0 has not met its match.
